         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Audit Report


       EPA Needs Procedures to
       Address Delayed Earmark
       Projects
       Report No. 10-P-0081

       March 22, 2010
Report Contributors:                               Kimberly Crilly
                                                   James Haller
                                                   Randy Holthaus
                                                   Janet Kasper
                                                   Madeline Mullen




Abbreviations

EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
IFMS          Integrated Financial Management System
IGMS          Integrated Grants Management System
NEPA          National Environmental Policy Act
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
ORBIT         Office of the Chief Financial Officer’s Reporting and Business Intelligence Tool
OW            Office of Water
SAAP          Special Appropriation Act Project




Cover photo: Aeration tank at a large wastewater facility. (EPA OIG photo)
                        U.S. Environmental Protection Agency 	                                                10-P-0081
                        Office of Inspector General                                                       March 22, 2010




                        At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review                 EPA Needs Procedures to Address Delayed
We performed this audit to             Earmark Projects
quantify unused Special
Appropriation Act Project               What We Found
(SAAP) funds and to determine
whether the U.S. Environmental         Some SAAP funds were still unobligated 5 years after Congress appropriated
Protection Agency (EPA)                them. Frequently, earmark recipients either could not obtain the matching funds
awarded funds and grantees used        required to obtain the grants, or the projects were complex and required
the funds in a timely manner.
This report corrects some              extensive planning. As of April 2009, there were 84 earmarks that Congress
information contained in a             appropriated before Fiscal Year 2004 totaling over $28 million that still had
previously issued report               funds that had not been obligated.
(Report No. 10-P-0041).
                                       Additionally, as of April 2009, there were 119 SAAP grants that EPA awarded
Background                             prior to Fiscal Year 2004 that had total funds remaining of over $122 million.
                                       In many cases, funds were not completely spent because the recipient had to
EPA has estimated that up to           make changes to the work plan, or the recipient was required to comply with
$1 trillion will be needed over        various State and local regulations, thereby delaying the project.
the next 20 years to repair,
replace, or upgrade aging              EPA established the goal of completing SAAP projects within 5 years of grant
drinking water and wastewater          award. However, EPA does not believe it has the authority to take action or
facilities; accommodate a              require corrective action for delayed SAAP earmarks or grants. EPA has no
growing population; and meet
new water quality standards. A         defined process for its regions to contact sponsoring Members of Congress
congressional earmark is part of       about reallocating unused SAAP funds. EPA needs a policy that specifies time
an appropriation designated by         limits and procedures for addressing earmarks that remain unobligated. It
Congress to be spent on a              should also address steps to be taken when projects are delayed. Currently,
particular project. Congress           unless Congress initiates a rescission, millions of dollars are available for
appropriates SAAP grant funds          projects that may never get started, while other projects that could improve the
in the form of earmarks for water      environment are not funded.
infrastructure projects.
Recipients generally must               What We Recommend
provide at least 45 percent of the
total cost of the project to qualify
for the grants.                        We recommend that the Office of Water establish a national policy that creates
                                       a response framework for dealing with unobligated earmarks. The framework
                                       should include criteria for when to escalate the handling of unobligated
For further information, contact       earmarks. We also recommend that the policy address actions to be taken when
our Office of Congressional,
Public Affairs and Management at       projects are delayed, and include an exception reporting procedure to focus
(202) 566-2391.                        management attention on delayed projects. EPA agreed with our
                                       recommendations and agreed to draft policies and reporting procedures within
To view the full report,               6 months and finalize and implement those procedures within 1 year of our
click on the following link:
                                       report being issued. These corrective actions, when implemented, should
www.epa.gov.oig.reports/2010/
20100322-10-P-0081.pdf                 adequately address the findings.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 22, 2010

MEMORANDUM

SUBJECT:	          EPA Needs Procedures to Address Delayed Earmark Projects
                   Report No. 10-P-0081


FROM:              Melissa M. Heist
                   Assistant Inspector General for Audit

TO:                Peter Silva
                   Assistant Administrator
                   Office of Water


This is a reissuance of our report on the U.S. Environmental Protection Agency’s (EPA’s)
management of earmark projects. The original report was issued on December 8, 2009 (Report
No.10-P-0041). This report corrects some of the information in the original report. As with the
original report, the revised report contains findings that describe the problems the Office of
Inspector General (OIG) has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $403,981.

Action Required

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking
system. The agreed-to milestones for each recommendation are required to be tracked in the
Management Audit Tracking System until the corrective actions are complete. While a formal
response to the final report is not required, we request that you provide us with documentation of
the policies and procedures that you prepare and issue in response to this report. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions, please contact Janet Kasper, Director, Contracts and
Assistance Agreement Audits, at 312-886-3059 or kasper.janet@epa.gov.
EPA Needs Procedures to Address                                                                                           10-P-0081
Delayed Earmark Projects




                                  Table of Contents 


Chapters 

   1    Introduction ...........................................................................................................      1


                Purpose ..........................................................................................................    1        

                Background ...................................................................................................        1        

                Noteworthy Achievements..............................................................................                 1        

                Scope and Methodology.................................................................................                2


   2    Some Earmarks Remain Unobligated 5 Years after Appropriation ..................                                               3


                SAAP Funds Remain Unobligated from Appropriations prior to FY 2004 ......                                             3

                EPA Does Not Have a Policy for Taking Action on Unobligated Earmarks....                                              4

                Recommendation ...........................................................................................            5

                Agency Comments and OIG Evaluation ........................................................                           5


   3    Some SAAP Grants Not Spent in a Timely Manner............................................                                     7


                Grant Funds Are Unspent 5 Years after Award..............................................                             7

                EPA Does Not Have a Policy to Reallocate Funds on Delayed Projects .......                                            8

                Recommendations ........................................................................................              9        

                Agency Comments and OIG Evaluation.........................................................                           9


   4    SAAP Database Limitations .................................................................................                  10    


   Status of Recommendations and Potential Monetary Benefits.................................                                        11    




Appendices 

   A    Details on Scope and Methodology.....................................................................                        12    


   B    Unobligated Earmarks Reviewed.........................................................................                       14    


   C    SAAP Grants with More than Half of Funds Remaining Reviewed ..................                                               16    


   D    Agency Response .................................................................................................            18    


   E    Distribution ............................................................................................................    20    

                                                                                   10-P-0081





                                Chapter 1

                                 Introduction

Purpose
          Water and wastewater infrastructure is one of the U.S. Environmental Protection
          Agency’s (EPA’s) top management challenges because drinking water and
          wastewater treatment systems are wearing out, and huge investments are needed
          to replace, repair, and construct facilities. When available infrastructure
          appropriations remain unused, water and wastewater infrastructure needs are not
          addressed. During this audit, our objective was to determine whether Special
          Appropriation Act Project (SAAP) funds were awarded and used in a timely
          manner.

Background
          A congressional earmark is part of an appropriation designated by Congress to be
          spent on a particular project. Congress has typically appropriated SAAP grant
          funds in the form of earmarks each year to fund drinking water and wastewater
          infrastructure projects to benefit specific communities. SAAP funds have no time
          limit for when they can be spent. SAAP is shown in the Catalog of Federal
          Domestic Assistance as Congressionally Mandated Projects. Communities are
          required to provide matching funds for these federal grants. Recipients must
          generally provide 45 percent of the total cost of the project to qualify for the
          grants. The matching requirement can be waived for two reasons: if specific
          language in the Conference Report or Appropriations Act specifies a different
          matching requirement or if there are financial capability issues.

          EPA’s Office of Water (OW) issues annual SAAP guidance for prospective
          grantees. OW delegates the authority to regions to manage SAAP grants. EPA
          project officers work with congressionally designated entities, such as cities and
          towns, to help them develop and submit SAAP grant applications. EPA’s
          June 10, 1997, strategy document established the goal of completing SAAP
          projects within 5 years of the award date and closing out the grants within 7 years
          of award.

Noteworthy Achievements
          Regions implemented some effective procedures to manage SAAP earmarks:

             •	 Region 4 oversees eight States and has more SAAP earmarks to manage
                than any other region. It awards grants on a first-come, first-served basis,
                based on geographical location within designated priority watersheds and



                                           1

                                                                                 10-P-0081


                greatest benefit to public health. Region 4 has hosted annual training
                conferences for all designated SAAP earmark recipients to help them
                understand the environmental review requirements and the grants process.
                These conferences inform the recipients about how to complete grant
                applications and encourage them to start project planning.

            •	 Region 9 assigns the duties of managing SAAP grants to many project
               officers. To ensure that grants are awarded, managed, and monitored
               correctly, Region 9 developed a comprehensive set of pre-award and post-
               award guidelines that all of its project officers can follow. The guidelines
               can help to ensure that SAAP grants are handled consistently within the
               Region. For example, guidelines propose that project officers use
               reimbursement request checklists, review all earmark grant invoices, and
               approve payment requests.

            •	 For SAAP grants awarded from Fiscal Year (FY) 1992 through FY 2008,
                regions closed more than 90 percent of them within 7 years of the award
                date.

Scope and Methodology
         We conducted this performance audit in accordance with generally accepted
         government auditing standards. Those standards require that we plan and perform
         the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
         for our findings and conclusions based on our audit objectives. We believe that
         the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our audit objectives.

         We conducted our audit work from November 2008 to September 2009. We
         focused on earmarks appropriated through 2006 that had funds remaining to be
         obligated as of April 2009, and SAAP grants EPA awarded prior to FY 2004 that
         still had funds remaining as of April 2009. We selected random samples of 22
         unawarded earmarks and 20 SAAP grants with more than 50 percent of funds
         remaining, as reflected in EPA systems as of February 2009. Nine regions were
         represented in our random sample. We interviewed regional staff about the
         selected earmarks and grants and reviewed supporting documentation. We also
         interviewed Headquarters staff from EPA’s OW and the Office of the Chief
         Financial Officer (OCFO).

         We quantified earmarks not obligated as of April 2009 using commitment data
         from the Integrated Financial Management System (IFMS), which was checked
         against the Integrated Grants Management System (IGMS) and the appropriations
         acts. We also quantified unliquidated obligations using data from the OCFO’s
         Reporting and Business Intelligence Tool (ORBIT), which pulls data from IFMS
         and IGMS. See Appendix A for further details on our scope and methodology.



                                          2

                                                                                                       10-P-0081





                                            Chapter 2
                      Some Earmarks Remain Unobligated
                         5 Years after Appropriation
                 As of April 2009, over $28 million in SAAP funds from congressional
                 appropriations prior to FY 2004 were not obligated. Frequently, earmark
                 recipients either could not provide the matching funds required for the grant, or
                 the projects were complex and required extensive planning. SAAP funds have no
                 time limit for when they can be spent, and regions rarely take steps to notify the
                 sponsoring Member of Congress that designated recipients are not applying for or
                 are unable to meet funding requirements. As a result, millions of dollars are
                 appropriated for projects that may never get started.

SAAP Funds Remain Unobligated from Appropriations prior to FY 2004
                 As of April 2009, there were 84 SAAP earmarks with unobligated funds of
                 $28,820,068 that were appropriated prior to FY 2004.1 The unobligated funds
                 included:

                      •	 Funds never awarded to the designated projects,
                      •	 Funds remaining after a portion of the funds earmarked for a project were
                         awarded, and
                      •	 Funds deobligated from completed projects.2

                 The following table shows unobligated earmarks through FY 2006.

        Table 2-1: Unobligated SAAP Funds

            Appropriation          Number of                                                       Deobligated
                Year               Earmarks          Never Awarded           Partial Award           Funds
          Prior to FY 2004                    84          $24,677,366             $3,249,108            $ 893,594
          2004                                98              35,293,000           9,109,765                 9,631
          2005                               175              52,341,472           3,454,740                   100
          2006                                84              53,596,700           3,827,311               486,080
          Total                          441          $165,908,538           $19,640,924                $1,389,405
           Source: IFMS commitments and Office of Inspector General (OIG) analysis.

                 In half of the cases we reviewed (11 of 22), recipients were unable to obtain
                 required matching funds or required more time to plan complex projects. For
1
  Obligations represent amounts awarded to a recipient for a grant that may need to be paid in the future.

Unobligated funds are funds that have not been identified to a specific grant. 

2
  At the end of grant, if there are obligated funds remaining, EPA deobligates the funds from the grant. However, 

the funds continue to be set aside in EPA’s accounting system for the community based on the original appropriation

language pending congressional direction to do otherwise. 



                                                         3

                                                                                   10-P-0081


          example, a Pennsylvania township with less than 2,000 residents could not obtain
          needed matching funds for its 2001 earmark of $1,935,700. A 2002 Delaware
          earmark recipient planned a high-profile wastewater project for its $1,940,000
          earmark. However, the recipient experienced a series of problems with its plans
          for spray irrigation, underground injection, and percolation.

          In other cases, grants were not awarded for a variety of reasons:

             •	 The designated recipient did not apply because the grant amount was
                small and there was staff turnover at the town.
             •	 There was a lack of required financial accounting procedures.
             •	 The original work plans changed.
             •	 Environmental requirements were difficult to meet.
             •	 The designated recipient was unaware of the requirement to provide
                matching funds for the grant.
             •	 A change in political leadership led to a change in the plan for the grant
                funds.

          See Appendix B for details of unobligated earmarks we reviewed.

EPA Does Not Have a Policy for Taking Action on Unobligated
Earmarks
          EPA does not have a policy that clearly identifies when regions should take
          actions on unobligated earmarked funds. Some designated recipients are not
          applying for the funds, and the funds could be considered for other purposes.
          While regions contact recipients several times a year to remind them that
          earmarked funds are available and assist recipients with the application process,
          they rarely take steps to contact the sponsoring Member of Congress. Interviews
          with EPA managers and staff indicated that they do not think they have the
          authority to make recommendations to Congress about the use of SAAP funds.
          According to OW personnel, because Congress specifically directs the amount
          and purpose of earmarked funds, EPA is prohibited from unilaterally taking any
          action that would change how the funds were intended to be used. SAAP funds
          cannot be allocated to another project unless Congress writes a rescission of funds
          into the law.

          Of the 22 unobligated earmarks we reviewed, EPA took steps to put the funds to
          better use in two cases. In one case, EPA was able to award the funds to another
          recipient through a technical correction to the appropriation report language that
          authorized the earmark. In the other case, after it became apparent that the
          designated recipient was not going to use the funds, the region coordinated with
          its Congressional Liaison office to find another project within the sponsoring
          district of the Member of Congress. According to EPA, Congress has not yet
          designated these funds for another project.



                                           4

                                                                                                         10-P-0081


                 Congress took action in 2006 and 2009 to rescind unobligated SAAP grants. The
                 2006 Appropriations Act (Public Law 109-54) rescinded $80 million in funds
                 from grants that were no longer available because the original project period
                 expired. The rescission included SAAP funds that were appropriated in FY 2000
                 or earlier and that had not been obligated on an approved grant by September 1,
                 2006. Because the rescission included a deadline for grant applications, it
                 encouraged designated recipients to finalize their project plans and apply for the
                 SAAP funds. The 2009 Omnibus Appropriations Act (Public Law 111-8)
                 included instructions that EPA rescind $10,000,000 from three sources:

                     •	 Unobligated balances from the Title II Construction Grants program;
                     •	 Unobligated prior-year balances from State categorical grant programs;
                        and
                     •	 Balances from special project grants appropriated in FY 2002 or earlier
                        which have not been obligated on an approved grant as of July 1, 2009.3

                 If Congress would include a rescission with deadlines and guidance in future
                 appropriations so that earmark recipients understand from the outset that time
                 limits exist for starting projects, they would be compelled to address more quickly
                 those obstacles that impede starting projects or risk losing their funds.

                 Millions of dollars are appropriated for projects that may never get started.
                 Meanwhile, other projects that could improve the environment go unfunded.
                 Over time, earmark purchasing power declines; the more time that elapses
                 between appropriation and award, the less purchasing power those dollars have.
                 EPA needs a policy outlining what actions EPA staff can take when communities
                 are not able to start their projects in a timely manner.

Recommendation

                 We recommend that the Assistant Administrator for the Office of Water, in
                 consultation with the Office of the Chief Financial Officer:

                 2-1 	    Establish a national policy that creates a response framework for dealing
                          with unobligated earmarks. The framework should include criteria for
                          when to escalate the handling of unobligated earmarks.

Agency Comments and OIG Evaluation

                 EPA agreed that the issue of unobligated and unliquidated earmarked funds must
                 be addressed. EPA noted that its ability to put unobligated earmarked funds to
                 better use is limited by the appropriations language itself. EPA suggested a
                 revision to our draft report recommendation to allow it some flexibility to deal

3
  Of the unawarded earmarks identified in Table 2-1 on page 3, EPA rescinded three earmarks, valued at
$1,017,730.


                                                        5

                                                                       10-P-0081



with workload and resource differences in the regions. For example, during our
exit conference, the Director, Municipal Support Division of OW, stated that a
region that has a large number of earmarks to manage – like Region 4 – might
need to use a different approach to ensure that the earmarks get awarded than a
region that receives fewer congressional earmarks to award. A region with a low
number of earmarks, for example, could visit each recipient individually, while
Region 4 would not be able to do that. We revised our draft report
recommendation to address the Agency’s perspective.

EPA concurred with the revision to Recommendation 2-1 and stated it will take
steps within the next 12 months to address the problems we identified. In
providing a corrective action plan and time frame for implementation, EPA has
addressed the recommendation. We continue to believe that EPA needs to ensure
that regions that receive many earmarks find ways to award them in a timely
manner. Regions with fewer earmarks could assist other regions that have to
manage many. We encourage EPA, in the response framework that it has agreed
to develop, to consider various approaches or options to ensure that all regions
award earmarks in a timely manner.




                                6

                                                                                              10-P-0081





                                            Chapter 3

       Some SAAP Grants Not Spent in a Timely Manner 

                   As of April 2009, EPA awarded 119 SAAP grants prior to FY 2004 that had funds
                   remaining on them. The funds remaining on those grants total over $122 million.
                   EPA established the goal of completing SAAP projects within 5 years of grant
                   award. However, regions rarely take steps to reallocate unused funds because
                   managers and staff do not think they have the authority to do so, and EPA has no
                   specific policy requiring them to do so. As a result, millions of dollars of grant
                   funds are not being used because of project delays.

Grant Funds Are Unspent 5 Years after Award
                   The Office of Wastewater Management annually issues guidance for
                   congressional earmarks appropriated for water infrastructure projects. The
                   guidance provides the regions with information on technical changes,
                   administrative requirements, and the names of the recipients and designated
                   earmark amounts. The guidance references a June 1997 strategy document that
                   established the goal of completing SAAP grants within 5 years of grant award.

                   There were, as of April 2009, 119 SAAP grants that EPA awarded prior to
                   FY 2004 that had funds remaining on them totaling $122,663,696. For 50 of
                   those grants (42 percent), more than half of the funds still remained after 5 years.4
                   Of the 20 such grants we reviewed having at least half of the funds remaining, the
                   following factors contributed to the delays in the projects and therefore the lack of
                   timely funds expenditure:

                       •	 Changes to the original work plans. For example, EPA awarded a storm
                          water grant of $1,645,400 on September 14, 2001, to a Florida
                          community. The recipient had to change its project work plan following
                          objections brought up during public meetings because the project involved
                          diverting storm water into a low-income neighborhood.

                       •	 Compliance with non-EPA regulatory requirements. For example,
                          EPA awarded a $261,000 wastewater grant on July 10, 2001, to a
                          Pennsylvania community. The recipient’s project was delayed in part due
                          to discovery of archaeological Civil War artifacts during the
                          environmental assessment.




4
    As of April 2009, reported through ORBIT.


                                                     7

                                                                                           10-P-0081


                   For 8 of the 20 grants we reviewed, no funds had been spent even though EPA
                   awarded the grants more than 5 years ago. Recipient changes to the original work
                   plan were a factor in delays for seven of the grants. For example:

                       •	 EPA awarded a grant of $1,451,800 for a water reservoir on July 27, 2001,
                          to a California community. The recipient needed to pursue additional
                          funding and redesign the project after the environmental assessment took
                          6 years.

                       •	 EPA awarded a grant of $867,300 on September 30, 2003, to a New York
                          community. The recipient expanded the scope of work for a wastewater
                          treatment plant based on projected population growth after the State did
                          not approve the original drinking water project.

                   See Appendix C for details of SAAP grants with unspent funds that we reviewed.

EPA Does Not Have a Policy to Reallocate Funds on Delayed Projects
                   EPA lacks the control activities needed to provide reasonable assurance that
                   SAAP grant funds will be spent in a timely manner. Control activities are
                   policies, procedures, and other mechanisms that help ensure that program
                   objectives are met.5 Although the goal to complete projects within 5 years of
                   award date was established in the June 10, 1997, EPA strategy document, many
                   grants have been delayed. Regions have no defined process for identifying
                   delayed projects or taking corrective action.

                   Regions recognize that communities need the funds for infrastructure projects,
                   even though they may not be able to complete projects within set timeframes.
                   Regions will rarely take steps to reallocate funds because managers and staff do
                   not think they have the authority to do so. However, EPA guidance states that
                   earmarks are to be managed like other grants.

                   EPA has limited guidance on how to deal with delays in earmark grants. In
                   FY 2007, EPA issued Grants Policy 07-01 to assist the regions with managing
                   earmarks. It stated that EPA Senior Resource Officials should coordinate earmark
                   grant problems with the Office of Congressional and Intergovernmental Relations
                   and the OCFO. However, EPA managers and staff have not been given any
                   guidance on what they can do to improve the timely execution of delayed
                   projects.




5
    Office of Management and Budget Circular A-123.


                                                      8

                                                                                    10-P-0081


         EPA has issued guidance to improve the timely expenditure of other grants. For
         example:

            •	 EPA added new timeliness language to the Terms and Conditions for
               FY 2009 Brownfields clean-up and assessment grants. If entities have not
               made sufficient progress on the project and started to spend funds within
               1.5 years, the grants may be terminated. The terms and conditions also
               define sufficient progress for grantees so they understand the requirements.

            •	 EPA instituted a Management Controls Policy for the Alaska Village Safe
               Water Program to define delayed projects and require corrective action
               plans. Stalled project reviews determine whether projects face unexpected
               obstacles that may cause significant delays. Then EPA begins to
               reallocate funding to other priority projects.

         Similar guidance is needed for SAAP earmarks. The guidance should address
         expected timeframes for completing SAAP projects, what action can be taken
         when projects do not meet the timeframes, and when projects should be elevated
         to management for specific attention.

         Millions of dollars in grant awards are not being used because of project delays.
         Earmark purchasing power declines over time; the longer the time lapse, the less
         those dollars are able to accomplish on the proposed projects. In addition, federal
         funds could remain obligated to a project that might never be completed, which
         reduces available federal funds for other needs.

Recommendations

         We recommend that the Assistant Administrator for the Office of Water, in
         consultation with the Office of the Chief Financial Officer:

         3-1	   Establish a national policy that clearly identifies corrective actions for
                delayed projects.

         3-2	   Create an exception reporting procedure for delayed projects to focus
                management attention on such cases.

Agency Comments and OIG Evaluation

         EPA agreed with Recommendations 3-1 and 3-2. EPA stated that it plans to draft
         the necessary policies and procedures to address the recommendations within
         6 months of the date of this audit report. EPA plans to finalize and implement
         those procedures within 12 months of the issuance of this report. The response
         addresses the recommendations and provides a timeframe for completing the
         actions.



                                           9

                                                                         10-P-0081





                      Chapter 4

         SAAP Database Limitations

OW’s SAAP database is not a reliable source of information for the status of
SAAP earmarks. As of December 1, 2008, the SAAP database contained
incorrect status information for 11 percent of all unawarded earmarks (8 of 73)
appropriated in FY 2003 and prior years.

   •	 Seven out of the 73 earmarks that were reported as unawarded in the
      SAAP database were awarded according to IGMS (2 of those grants were
      actually closed out).

   •	 One of 73 earmarks was recorded in the SAAP database but could not be
      found in IFMS, so its accuracy could not be confirmed.

EPA Directive 2520, Administrative Control of Appropriated Funds, defines
internal controls (in part) as a “Plan of organization, methods, and procedures
adopted by management to ensure that . . . reliable data are obtained, maintained,
and fairly disclosed in reports.”

EPA’s use of the SAAP database as a management tool is not completely
effective because of the potential for incorrect or missing information. As a
result, OW cannot be assured that it is fully aware of the extent to which
earmarked funding and projects are delayed. However, OW explained that the
SAAP database is reliable for OW’s use in producing reports twice per year. OW
personnel told us that they are aware of the SAAP database deficiencies, and they
plan to improve the database if funding becomes available.




                                10

                                                                                                                                          10-P-0081



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1        Action Official           Date      Amount      Amount

    2-1       5     In consultation with the Office of the Chief Financial     O         Assistant Administrator   3/23/2011
                    Officer, establish a national policy that creates a                         for Water
                    response framework for dealing with unobligated
                    earmarks. The framework should include criteria
                    for when to escalate the handling of unobligated
                    earmarks.

    3-1       9     In consultation with the Office of the Chief Financial     O         Assistant Administrator   3/23/2011
                    Officer, establish a national policy that clearly                           for Water
                    identifies corrective actions for delayed projects.

    3-2       9     In consultation with the Office of the Chief Financial     O         Assistant Administrator   3/23/2011
                    Officer, create an exception reporting procedure for                        for Water
                    delayed projects to focus management attention on
                    such cases.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   11

                                                                                                         10-P-0081


                                                                                                    Appendix A

                     Details on Scope and Methodology
To identify the appropriated funds that were not obligated, as identified in Chapter 2, we
analyzed data from IFMS and IGMS. The data we obtained from IFMS was as of April 1, 2009.
We also provided the information to EPA before issuing the report.

We reviewed 22 unawarded SAAP earmarks totaling just over $15 million. The unobligated
earmarks were identified using information from the SAAP database as of February 2009.6 The
22 unawarded earmarks consisted of a nonstatistical random sample of 12 unobligated earmarks
appropriated prior to FY 2004, and a second nonstatistical random sample of 10 unawarded
earmarks appropriated during FYs 2004 through 2006. We selected grants appropriated prior to
FY 2006 based on an estimate of 2 years to award grants. Since the sample was nonstatistical,
the results cannot be projected to the universe of unawarded earmarks.

Table A-1: Unobligated SAAP Funds Reviewed
                                            Unawarded                   Unawarded Grant
           Appropriation Year             Grants Reviewed               Amount Reviewed
    Prior to FY 2004                             12                        $10,641,200
    FY 2004                                       2                            264,563
    FY 2005                                       4                          1,241,200
    FY 2006                                       4                          2,819,500
    Total                                        22                        $14,966,463
Source: SAAP database.

We identified the universe of unused SAAP funds based on information from IGMS and IFMS
using the ORBIT report tool. The report included data as of April 2009.

For our sample selection of unused grant funds, we used data from IGMS and IFMS to identify
grants that had been awarded prior to FY 2004 that were not completed as of February 23, 2009.
The ORBIT report uses data from IFMS and IGMS. We selected a nonstatistical random sample
of 20 SAAP grants awarded prior to FY 2004 with more than 50 percent of their funds
remaining. We selected grants awarded prior to FY 2004 based on the EPA criteria that SAAP
grant projects be completed within 5 years. Since the sample was nonstatistical, the results
cannot be projected to the universe of unawarded earmarks

The grants in our samples covered Regions 1, 2, 3, 4, 5, 6, 8, 9, and 10. For each of the grants in
our samples, we interviewed regional staff and reviewed documents to determine:

      •   Why sampled earmarks were not awarded,
      •   What efforts the regions made to award the grants,

6
  Although the SAAP database contained errors (as we disclosed in Chapter 4), the reliability of the data was
sufficient to select a sample to conduct our audit work.



                                                         12

                                                                                      10-P-0081



   •   Why sampled grants awarded prior to FY 2004 were not fully spent, and
   •   Whether unspent funds were still needed.

For the unawarded earmarks, we also interviewed four grant recipients to learn why they did not
apply for the grants.

During our audit, we interviewed Headquarters and regional staff and reviewed EPA policies to
determine what courses of action are available to EPA if SAAP recipients no longer need the
funds. We also interviewed OW staff regarding the management of earmark grants.

Our review of management controls was limited to identifying and assessing internal controls in
place to track unawarded earmarks and funds remaining on SAAP grants awarded prior to
FY 2004. We gained an understanding of internal controls through interviews with Headquarters
and regional staff, a review of EPA policies, and an analysis of a sample of unawarded and
unused SAAP funds. OIG performed audits of SAAP grants during FYs 2007 and 2008, and we
reviewed them during our audit.




                                              13

                                                                                                     10-P-0081


                                                                                                Appendix B

                       Unobligated Earmarks Reviewed 7
Earmark     Designated     Designated
Sample       Earmark        Earmark       Appropriation
Number       Region         Amount            Year                 Explanations Given by the Regions
   1        Region 1          $14,838         2004          The recipient did not apply because the grant
                                                            amount was small and there was staff turnover at
                                                            the town.

                                                            This earmark was eventually awarded, during our
                                                            audit, on June 23, 2009.
    2       Region 1        $1,146,900         2006         The designated recipient changed the work plan.
    3       Region 2         $485,000          2002         The designated recipient did not respond to the
                                                            Region’s attempts to discuss the earmark.
    4       Region 2          $485,000         2002         The earmark was awarded May 9, 2006, and
                                                            closed out July 11, 2006. Including it in the SAAP
                                                            database as an unawarded earmark was in error.
    5       Region 2         $105, 800         2005         The designated recipient lacked the accounting
                                                            system required to support the grant.
    6       Region 3        $1,933,700         2001         The designated recipient could not provide
                                                            matching funds for the grant.

                                                            Funds were de-obligated and then awarded to
                                                            another recipient, during our audit, on March 10,
                                                            2009.
    7       Region 3        $1,940,000         2002         The designated recipient changed the work plan.
    8       Region 3          $461,900         2005         The designated recipient could not provide
                                                            matching funds for the grant.
    9       Region 3          $477,900         2006         The designated recipient had to coordinate
                                                            additional funding from multiple sources.
    10      Region 4          $967,900         2001         The designated recipient did not apply for the grant
                                                            until January 14, 2009, and it was awarded, during
                                                            our audit, on April 3, 2009.
    11      Region 4          $970,000         2002         Multiple local governments had to work together on
                                                            the project, which lengthened the planning process.

                                                            The project included several appropriations, and
                                                            was eventually awarded, during our audit, on
                                                            July 1, 2009.
    12      Region 4          $563,800         2003         The designated recipient engaged in a lengthy
                                                            planning process.




7
 We drew our sample on February 5, 2009, for the earmarks in the appendix. Subsequent to that date, and during
our audit work, EPA awarded some of these earmarks.


                                                       14
                                                                                                    10-P-0081



Earmark    Designated    Designated
Sample      Earmark       Earmark       Appropriation
Number      Region        Amount            Year                 Explanations Given by the Regions
   13      Region 4        $867,300         2003          The designated recipient wanted to use an
                                                          unapproved source, Federal Emergency
                                                          Management Agency funds, as matching funds for
                                                          the grant.

                                                          No engineer was available.

                                                          The designated recipient changed the work plan.
   14      Region 4         $650,500         2003         The Region had received the application and could
                                                          not explain why it was not awarded.
   15      Region 4         $192,400         2005         The designated recipient changed the work plan.
   16      Region 4         $477,900         2006         The environmental assessment was approved in
                                                          March 2008, and the recipient submitted its
                                                          application on January 9, 2009.
   17      Region 4         $716,800         2006         The National Environmental Policy Act (NEPA)
                                                          review is still ongoing.
   18      Region 5         $867,300         2003         The designated recipient wanted to use the funds
                                                          to pay back a State revolving fund loan, which is
                                                          against the SAAP grant requirements.
   19      Region 5         $482,100         2004         The NEPA review took a long time, but EPA
                                                          awarded the balance of the grant on February 9,
                                                          2009.
   20      Region 5         $481,100         2005         At the time of the appropriation, the designated
                                                          recipient was unaware of the requirement to
                                                          provide matching funds for the grant.

                                                          There was a change in political leadership and
                                                          subsequent change in the plan for the grant funds.
   21      Region 6         $433,700         2003         The designated recipient could not provide
                                                          matching funds for the grant.

                                                          The grant was awarded, during our audit, on
                                                          February 20, 2009.
   22      Region 10        $477,000         2003         The approved project required a technical change
                                                          to be written into the appropriations act.

                                                          The City’s financial director was unavailable to start
                                                          the project.

                                                          The grant was awarded, during our audit, on
                                                          February 6, 2009.
Source: Agency databases and OIG analysis.




                                                    15

                                                                                                            10-P-0081


                                                                                                       Appendix C

                          SAAP Grants with More than
                       Half of Funds Remaining Reviewed
                                              Percentage
                  Award           Grant        of Funds
 Grant #           Date          Amount       Remaining 8               Explanations Given by the Regions
98281701        09/30/2003        $867,300        100          The recipient could not get State approval for the
                                                               original project.

                                                               The recipient changed its work plan, and it is now
                                                               under construction.
98280901        02/27/2003      $1,746,000         88          The recipient could not get State approval for the
                                                               project.

                                                               The recipient is trying to determine eligible costs.

                                                               The recipient is trying to obtain matching funds from
                                                               the State.

                                                               The recipient has to meet federal fish and wildlife
                                                               requirements.
98284601        09/30/2003       $867,300         100          The recipient was trying to determine eligible costs
                                                               associated with a completed project.
42995901        07/10/2001       $261,000          98          The recipient had to meet other federal, State, or
                                                               local regulatory requirements before proceeding with
                                                               construction.

                                                               Several local government entities disagreed about
                                                               how the funds should be spent and what project
                                                               should be funded.
98355901        09/26/2001      $9,872,200         80          Several local government entities disagreed about
                                                               how the funds should be spent and what project
                                                               should be funded.
98380301        07/02/2003      $1,746,000        100          The recipient had a shortage of people to start the
                                                               project.
97401300        09/29/2000      $2,619,550         67          Several local government entities disagreed about
                                                               how the funds should be spent and what project
                                                               should be funded.

                                                               The recipient could not provide matching funds for
                                                               the grant.
97436201        09/14/2001      $1,645,400         80          The recipient had to meet other federal, State, or
                                                               local regulatory requirements before proceeding with
                                                               construction.

                                                               The recipient changed the work plan.




8
    These percentages are as of the date we selected our sample on February 23, 2009.


                                                          16
                                                                                                     10-P-0081



                                        Percentage
              Award          Grant       of Funds
 Grant #       Date         Amount      Remaining 8             Explanations Given by the Regions
97444002    03/05/2003       $500,000        97         The recipient changed the work plan.

                                                        The recipient’s plans were challenged by an
                                                        environmental group.
97465403    05/28/2003       $873,000        100        Several local government entities disagreed about
                                                        how the funds should be spent and what project
                                                        should be funded.

                                                        The recipient had to meet other federal, State, or
                                                        local regulatory requirements before proceeding with
                                                        construction.

                                                        There was a change in political leadership.
97473503    03/05/2003       $970,000        77         The recipient had labor problems and obtained a new
                                                        contract for the planned work.
97603401    05/22/2002     $2,000,000        74         The recipient had to meet other federal, State, or
                                                        local regulatory requirements before proceeding with
                                                        construction.
97630701    02/07/2003     $1,309,500        89         In addition to providing matching funds, the recipient
                                                        had to obtain more funding for various aspects of the
                                                        project.
97607001    09/04/2003     $1,236,200        79         There was a change in political leadership.

                                                        The NEPA review took a long time.
97653701    09/24/2003     $2,000,000        100        The recipient had to meet other federal, State, or
                                                        local regulatory requirements before proceeding with
                                                        construction.
98875401    02/07/2003       $679,000        100        The recipient is awaiting State approval for the
                                                        project.

                                                        The recipient changed the work plan.

                                                        The recipient’s plans were challenged by an
                                                        environmental group.

                                                        The recipient has not submitted NEPA documents for
                                                        approval.
98992601    07/27/2001     $1,451,800        100        The recipient changed the work plan.

                                                        The NEPA review took a long time.

                                                        In addition to providing matching funds, the recipient
                                                        had to obtain more funding for various aspects of the
                                                        project.
97926401    09/30/2002       $571,700        100        The recipient changed the work plan.

                                                        The NEPA review took a long time.
97925001    09/26/2002       $145,500        80         The recipient changed the work plan.
97951001    08/25/2003       $970,000        74         The recipient had to meet local regulatory
                                                        requirements before starting construction.
Source: Agency databases and OIG analysis.




                                                   17
                                                                                          10-P-0081


                                                                                     Appendix D

                                 Agency Response
                                         November 9, 2009


MEMORANDUM

SUBJECT:	 Draft Audit Report
          EPA Needs Procedures to Address Delayed Earmark Projects
          Project Number OA-FY09-0600

FROM: 	        Peter S. Silva
               Assistant Administrator

TO:    	       Janet Kasper, Director
               Office of Inspector General
               Contracts and Assistance Agreement Audits

       Thank you for providing the opportunity to comment on the Office of Inspector General’s
(OIG) Draft Audit Report: EPA Needs Procedures to Address Delayed Earmark Projects
(9/18/2009). The draft report contains the following recommendations:

       1.	 “Establish a national policy that clearly identifies criteria for when EPA should take
           action to put unawarded earmarks to better use, and define a process for regions to
           follow.”

       2.	 “Establish a national policy that clearly defines corrective actions for delayed
           projects.”

       3.	 “Create an exception reporting procedure for delayed projects to focus management
           attention on such cases.”

         The Office of Water (OW) agrees that the issue of unobligated and unliquidated earmark
funds must be addressed. We recommend rewording Recommendation 1 to be “Establish a
national policy that creates a response framework for dealing with unawarded earmarks.” This
will allow us some flexibility for dealing with Regional differences in workload, resources, and
established relationships while settting out criteria for escalation of handling unawarded
earmarks. This rewording appears reflective of the intent of the original draft recommendations.
It is also in line with EPA authorities, as our ability to “put unawarded earmarks to better use” is
limited by the appropriations language itself. With that modification, OW concurs with OIG
recommendations. Staff from EPA’s OW, Office of the Chief Financial Officer (OCFO), and the
Office of General Council (OGC) held a meeting on October 15, 2009 to determine the extent of
EPA’s authority regarding unobligated and unliquidated funds, discuss policy options, and
establish the necessary timeframe for the development and implementation of policies and


                                                18

                                                                                     10-P-0081



exception reporting procedures. OW believes that the recommended policies and reporting
procedure can be drafted within 6 months from the issuance of the OIG’s final report, and
finalized and implemented 6 months later.

      Should you have any questions regarding these comments, please contact Sheila Frace,
Municipal Support Division Director at (202) 564-1153, or Matt King at (202) 564-2871.




                                              19

                                                                                  10-P-0081


                                                                              Appendix E

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Water
Assistant Administrator, Office of Administration and Resources Management
Chief Financial Officer
Regional Administrators (1-10)
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Regional Operations
Audit Follow-up Coordinator, Office of Water
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Acting Inspector General




                                            20

